Appendix

Table of Contents
Uniform Faithful Presidential Electors Act
with Prefatory Note and Comments . . . . . . . . . 1a

(i)

1a

[Editing Note: Cover page and Commissioner Information omitted]
UNIFORM FAITHFUL PRESIDENTIAL ELECTORS ACT
Prefatory Note
Introduction
From the very beginning, the formalities of presidential (and vice-presidential) selection under the
United States Constitution have revolved around what
has come to be known as the “electoral college.” Despite this formal constancy, the realities of the selection process have changed dramatically over the years,
to the point that the electoral college actually functions
in a way that could hardly have been imagined by
those who promulgated the constitutional provisions.
The dissonance between formality and reality has
opened room for what are called “faithless electors,”
members of the electoral college who vote for candidates for president or vice president (or both) other
than those for whom the popular electoral majority (or
plurality) assumed it was casting its votes. Faithless
electors hold the potential for serious damage to our
democratic processes, making advisable a uniform law
to minimize the dangers posed.
The Formal Constitutional Process
Under the Constitution, each state is entitled to a
number of electors equal to its total representation in

2a

the two houses of Congress. Originally the District of
Columbia had no electoral votes, but the Twenty-Third
Amendment now assigns to the District a number of
electors equal to that of the least populous state. Electors are chosen “is such manner as [each state] . . . legislature [or Congress in the case of the District] may
direct” and every four years they meet in separate
state (and DC) meetings on a date chosen by Congress.
That date is constitutionally required to be uniform
throughout the country. See U.S. CONST., Art. II, § 1,
cls. 2 & 3, Am. XXIII. Under current law, the date that
Congress has designated for those meetings comes
about forty days after what is uniformly thought of as
“election day,” formally the day, also designated by
Congress, on which those electors are chosen. See 3
U.S.C. §§ 7 & 1 (“the first Monday after the second
Wednesday in December” and “the Tuesday next after
the first Monday in November” respectively). At those
disparate state meetings the electors choose the nation’s president and vice president.
State-Centered Decisions about the
“Manner” of Elector Selection
The District and every state has opted for popular
election as its “manner” of choosing electors. Maine
and Nebraska select two of their electors by the statewide popular vote count, and their remaining electors
through the tally in each of the state’s congressional
districts. See, e.g., NEB. REV. STAT. § 32-1038. The remaining forty-eight states and the District use what is
called “winner-take-all,” with the choice among complete slates of electors that have qualified under state
law turning on the popular vote count in the state as a

3a

whole. See, e.g., COLO. REV. STAT. § 1-5-403.
This does not, however, exhaust the possibilities for
the “manner” of elector choice. In the early presidential
elections, for instance, some state legislatures chose
their electors directly. And in recent years there has
been a movement to have a state’s electors determined
by the nationwide popular vote count, rather than the
statewide count. To date six states (Maryland, Massachusetts, Hawaii, Illinois, New Jersey and Washington) have signed on to that nationwide popular vote
plan, though even in those six states, the plan would
not become effective until states with a majority of the
total number of electors throughout the country (270)
sign on. See John R. Koza et. al., Every Vote Equal: A
State-Based Plan for Electing the President by National Popular Vote (2d ed. National Popular Vote
Press 2008).
State Law and the Election-Day Ballot
In virtually all states, however, the part played by electors is not transparent under state law, including the
way states structure the ballot. In many states, for
instance, the ballot makes no mention at all of electors,
instructing the voter instead to vote for one or another
set of paired candidates for president and vice president. Even in states that include some reference to
electors on the ballot (or in a few, even list the elector
candidates, see, e.g., ARIZ. REV. STAT. § 16-507), the
names of presidential and vice-presidential candidates—and their political parties—are given considerably greater prominence. State law then dictates that
the electors associated with the popular vote winners
become the state’s electors entitled to vote at those

4a

later elector meetings. See, e.g., ALA CODE § 17-14-32;
ARIZ. REV. STAT. § 16-507.
Some Early Assumptions about the Process
When the office of elector was created in the original
Constitution, it surely was assumed that in their stateby-state meetings electors would vote not based on
some decision in an earlier vote, but rather after genuine debate and deliberation at the meetings about who
in the nation would be best suited for the presidency.
A majority of the country-wide total of “appointed”
electors was required to prevail in the electoral college,
but with the vote taken in unconnected meetings, it
would not have been surprising if no candidate commanded the required nationwide majority. Thus a
backup procedure was provided in which the House of
Representatives would choose the president and the
Senate the vice president if the electoral college balloting was indecisive. See U.S. CONST., Art. II, § 1, cl. 3.
The Unanticipated Role of Political Parties
and the Twelfth Amendment
The entry of political parties into the process utterly
confounded assumptions underlying this scheme. Parties are nowhere mentioned in the Constitution, and
indeed were thought by many of the most important
constitutional draftsmen to be potentially mischievous
“factions,” which might have to be tolerated but which
were to play no real role in presidential selection. See,
e.g., Federalist 10 (Madison). Starting quite early,
however, political parties moved to center stage in the
presidential selection process, nominating presidential

5a

and vice-presidential candidates and also slates of electors who, it soon came to be taken for granted, would
vote for the parties’ executive office candidates were
they “chosen” as the states’ electors.
This political party loyalty was on stark display in
the 1800 election. Two parties had quickly emerged,
the Federalists and a competitor associated with
Thomas Jefferson which went under various names,
but which we can call the “Jeffersonians.” Under the
original constitutional scheme, each elector cast two
votes for president, and once the presidency had been
determined, the candidate with the next highest number of electoral votes became vice president. There was
no separation of the two votes, and the vice president
did not even require a majority in the electoral college.
See U.S. CONST., Art. II, § 1, cl. 3. But in the 1800 election, all the electors nominated by the Jeffersonians
cast both their votes “faithfully” for the party’s presidential “candidate,” Thomas Jefferson, and also for the
party’s vice-presidential candidate, Aaron Burr. The
result was a tie, throwing the selection into the backup
procedure in the House—albeit through the unanticipated mechanism of political party coordination.
A majority of state delegations was (and is) required for House selection, see U.S. CONST., Art. II, § 1,
cl. 3, and it took thirty-six House votes before Jefferson
emerged victorious. This unsettling drama prompted
passage of the Twelfth Amendment, separating the
votes for president and vice president, requiring electoral college majorities for both offices, and designating
the Senate to conduct any required backup procedure
for selecting the vice president.
Despite the fact that the 1800 election had shown
how important political parties had become in the pro-

6a

cess, the Twelfth Amendment continued to ignore their
role. The Supreme Court has suggested that states are
constitutionally required to hold open the possibility of
presidential and vice-presidential candidates not associated with any political party. See Storer v. Brown,
415 U.S. 724, 745-46 (1974). In fact, however, most of
the candidates today—for the nation’s executive offices
and for the office of elector--are nominees of political
parties. Indeed, since Washington’s presidency, all prevailing candidates have been readily associated with a
political party. And the role of parties in the process
has set the stage for elector faithlessness.
The Problem of “Faithless” Electors
Over the years almost all electors have in fact voted
for their parties’ candidates, but for a variety of reasons, an occasional elector has not. These latter “faithless” electors have never changed the outcome of a
presidential election, but that is in good part because
with the winner-take-all approach of almost all states,
the electoral college outcome is seldom very close. Still,
close counts are certainly possible—evidenced by the
2000 election—and there is ample reason to believe
that presidential campaigns make plans to court faithless votes if the nationwide electoral college count
promises to be close. After the 1976 election, for instance, Robert Dole, the Republican vice-presidential
candidate, testified about Republican plans to court
faithlessness had the outcome been closer. And in the
run-up to the 1968 election, several electors made contingency plans for their own faithlessness. See Robert
Bennett, Taming the Electoral College 231 n.31 (Stanford University Press 2006); see also id. at 231-32 n.32.

7a

Should the apparent outcome of an election appear to
turn on whether faithless votes are counted as cast or
as previously committed, however, an extraordinarily
rancorous dispute would be in prospect.
State Responses
It is thus not surprising that approximately half of
the states have taken some action to discourage or forbid faithless electoral votes. Some employ pledges of
faithfulness, administered in some cases by political
parties and in other cases as part of the ballot qualification process. See, e.g., ALA. CODE § 17-14-31; FLA.
STAT. Title IX, § 103.021. In 1952, the Supreme Court
upheld a political party-administered pledge against a
constitutional challenge. See Ray v. Blair, 343 U.S. 214
(1952). Others forbid faithlessness, some with civil, or
even criminal penalties. See, e.g., CAL. ELEC. CODE §
6906 (no apparent penalty); N.M. STAT. ANN. § 1-159(B) (fourth degree felony). And some provide that
faithless voting constitutes resignation from the office
of elector. See, e.g., MICH. COMP. LAWS Ann. § 168.47.
Some of these measures raise questions of whether any
faithless votes might nonetheless be counted, while
others raise the different question of whether a disqualified vote was nonetheless that of an “appointed”
elector for purposes of determining whether the required “majority of whole number of electors appointed” was obtained. U.S. CONST. Art. II, § 1, cl.2;
Am. XII.
The Approach of the Uniform Law
The Conference has decided that a uniform law is ad-

8a

visable, in order to foreclose the possibility of faithlessness, and simultaneously to help assure that all states
attempting to appoint a complete complement of electors will succeed. The uniform law proposes a stateadministered pledge of faithfulness (sections 4 and
6(c)), with any attempt by an elector to submit a vote
in violation of that pledge effectively constituting resignation from the office of elector (section 7(c)). The draft
Act provides a mechanism for filling a vacancy created
for that reason or any other, with the substituted elector taking a similar pledge (sections 6(b) & (c)). After a
full set of faithful elector votes is obtained, the uniform
law further provides that the official notification of the
identity of the state’s electors that is required under
federal law (through a document called a “certificate of
ascertainment,” see 3 U.S.C. § 6) be officially amended
by the Governor, so that the state’s official list of electors contains the names of only faithful electors (section 8).
The Twentieth Amendment deals with the problem
of death of a president-elect after the elector meetings
and before inauguration day, as well as with the possibility that the selection process will not have produced
a decisive choice for president by the time for inauguration. In both situations, the Amendment turns to the
vice-president-elect to fill in, unless, of course, the vicepresident elect has also not been chosen. The Amendment authorizes the Congress to pass legislation to
designate an acting president where neither a
president-elect nor a vice-president elect has been chosen. For these purposes, a candidate presumably becomes president-elect (and vice-president elect) after
the electoral college voting, if that voting has produced
a definitive result.

9a

The Constitution is silent on a variety of other problems caused by deaths or, indeed, other sorts of arguably disqualifying developments. This is particularly
notable in the period after election day but before the
electors have met and voted. Some state statutes deal
with problems in that earlier period, but they differ in
their guidance for the electors. Compare TENN. CODE
ANN. § 2-15-104 (elector discretion), with MONT. CODE
ANN. § 13-25-101 (political party substitution). This Act
does not deal with the with the possibilities of death,
disability or disqualification of a presidential or vicepresidential candidate before the electoral college
meetings.
Conclusion
The goal of this Act is admittedly to address a problem
that may be unlikely to arise. If it does arise, however,
the potential is great for harm to our democracy caused
by faithless electors whose votes, if counted, would
prove decisive. The solution of the Act is to prevent the
problem from arising by binding electors to the pledge
they made as a condition of being chosen as an elector.
Uniform adoption of the Act will assure that the solution is consistent among the states, foreclosing attempts to “peel off” electors and helping states to secure their full complements of electoral votes. Widespread adoption will also strengthen the Act against
any claim that the remedy is unconstitutional.

10a

UNIFORM FAITHFUL PRESIDENTIAL
ELECTORS ACT
SECTION 1. SHORT TITLE. This [act] may be cited
as the Uniform Faithful Presidential Electors Act.

SECTION 2. DEFINITIONS. In this [act]:
(1) “Cast” means accepted by the [Secretary of
State] in accordance with Section 7(b).
(2) “Elector” means an individual selected as a presidential elector under [applicable state statute] and
this [act].
(3) “President” means President of the United
States.
(4) [“Unaffiliated presidential candidate” means a
candidate for President who qualifies for the general
election ballot in this state by means other than nomination by a political party.]
[(5)] “Vice President” means Vice President of the

11a

United States.
Comment
As mentioned in the prefatory note, the Supreme
Court has suggested that states are required to hold
open the possibility of presidential candidates unaffiliated with any political party. See Storer v. Brown, 415
U.S. 724, 745-46 (1974). Most states do not, however,
deal explicitly with that possibility. For states that
want to make the possibility explicit, a bracketed definition of “unaffiliated presidential candidate” is provided in Section 2, and then bracketed substantive provision for such candidates is included in Sections 3, 4
and 6.
No definition of a “faithful” presidential elector is
provided in Section 2, but the idea is captured by the
pledge requirements of Sections 4 and 6(c), and then
the provision of Section 6 that attempted violations of
the pledge causes the violating elector to vacate the
office of elector, creating a vacant position to be filled
under Section 6.
SECTION 3. DESIGNATION OF STATE’S ELECTORS. For each elector position in this state, a political party contesting the position[, or an unaffiliated
presidential candidate,] shall submit to the [Secretary
of State] the names of two qualified individuals. One of
the individuals must be designated “elector nominee”

12a

and the other “alternate elector nominee”. Except as
otherwise provided in Sections 5 through 8, this state’s
electors are the winning elector nominees under the
laws of this state.
Legislative Note: For a state wishing to accommodate
unpledged electors, the following three sentences could
be substituted for the first two sentences of Section 3:
“Any political party [or unaffiliated presidential candidate] advancing candidates for elector positions in this
state shall submit to the [Secretary of State] the names
of two qualified individuals for each elector position to
be contested. One of the individuals must be designated “elector nominee” and the other “alternate elector nominee”. Any unpledged candidate for the position
of elector who is not nominated by a political party or
unaffiliated presidential candidate shall submit to the
[Secretary of State], in addition to the individual’s own
name as “elector nominee”, the name of another qualified individual designated as “alternate elector nominee”.”
Comment
Section 3 uses the device of elected alternates as a
convenient vehicle for facilitating the filling of elector
vacancies, which is then dealt with under Section 6.
But alternates are not essential for the filling of vacancies, nor does the designation of alternates for each
elector position absolutely guarantee that the alternates will suffice for the filling of all vacancies that

13a

conceivably might arise. Thus most states do not at the
present time provide for the initial selection of alternate electors, relying instead on persons who happen
to be available should there be a vacancy that has to be
filled. For examples of states that do employ designated alternates, see HAW. REV. STAT. ANN. §§ 14-21,
14-23; MINN. STAT. ANN. §§ 208.03, 208.05. Note, however, that Minnesota does not designate an alternate
for each elector position. In any event, if a state preferred not to employ the device of alternates, adjustment of this section and of Section 6 would be necessary.
It may be that a state would provide for the possibility of slates of electors not committed to any political
party or to particular presidential or vice-presidential
candidates. The Mississippi statute explicitly adverts
to the possibility of an unpledged elector. See MISS.
CODE ANN. § 23-15-785 (4). Adjustment of Section 3 is
required for any such states, as is adjustment of Sections 4 and 6. The legislative note to Section 3 provides
language that could be used if an adjustment were undertaken.
SECTION 4. PLEDGE. Each elector nominee and alternate elector nominee of a political party shall execute the following pledge: “If selected for the position of
elector, I agree to serve and to mark my ballots for
President and Vice President for the nominees for
those offices of the party that nominated me.” [Each

14a

elector nominee and alternate elector nominee of an
unaffiliated presidential candidate shall execute the
following pledge: “If selected for the position of elector
as a nominee of an unaffiliated presidential candidate,
I agree to serve and to mark my ballots for that candidate and for that candidate’s vice-presidential running
mate.”] The executed pledges must accompany the submission of the corresponding names to the [Secretary
of State].
Legislative Note: This act does not deal with the possibility of death of a presidential or vice-presidential candidate before the electoral college meetings, or with
any other disabling condition or the discovery of disqualifying information. A state may choose to deal separately with one or another of these possibilities.
Comment
To accommodate a nominee unable physically to
sign a pledge,“execution” of the pledge may be accomplished in the nominee’s presence by another individual directed by the elector to sign the pledge.

15a

SECTION 5. CERTIFICATION OF ELECTORS. In
submitting this state’s certificate of ascertainment as
required by 3 U.S.C. Section 6, the [Governor] shall
certify this state’s electors and state in the certificate
that:
(1) the electors will serve as electors unless a vacancy occurs in the office of elector before the end of the
meeting at which elector votes are cast, in which case
a substitute elector will fill the vacancy; and
(2) if a substitute elector is appointed to fill a vacancy, the [Governor] will submit an amended certificate of ascertainment stating the names on the final
list of this state’s electors.
Comment
3 U.S.C. § 6 instructs “the executive of each state”
to inform relevant federal officials as well as prevailing
elector candidates about the identity of the state’s electors. The document containing this information is
called a ‘certificate of ascertainment,” and it is also to
include the names and number of popular votes obtained by all elector candidates in the state. This is to

16a

be done “as soon as practicable” after the decisions
have been made, but this is surely not intended to prevent later substitution of electors, and many states
already make provision for such substitutions. See,
e.g., NEV. REV. STAT. ANN. § 298.040. The possibility of
later substitution is central to the Uniform Act’s approach to the problem of elector faithlessness, and for
that reason Section 5 of the Act instructs the state executive to make explicit in the certificate of ascertainment that later substitution is possible and that where
it has proved necessary a later amended certificate of
ascertainment will be provided with a revised list of
the state’s electors. Section 8 then provides for submission of any amended certificate of ascertainment that
proves necessary. Under the Constitution electoral
votes are counted at a joint meeting of the House and
Senate, U.S. Const., Am. XII, and at times in the past
at those sessions, faithless elector votes have been
counted as cast. See Robert Bennett, Taming the Electoral College 38-39, 96 (Stanford University Press
2006). Those appear to have been situations where the
certificate of ascertainment named the eventually
faithless electors as those of the state, and provision in
this act for an amended certificate should assure that
the votes that are counted are only those of the electors
on the amended list, all of whom would have cast faithful votes.
Most state statutes specify that the Governor is to
carry out this duty assigned to “the executive of each
state.” See, e.g., 10 ILL. COMP. STAT. 5/21-3. States
could presumably opt for a different executive officer,
both in Section 5 and Section 8.

17a

SECTION 6. PRESIDING OFFICER; ELECTOR VACANCY.
(a) The [Secretary of State] shall preside at the
meeting of electors described in Section 7.
(b) The position of an elector not present to vote is
vacant. The [Secretary of State] shall appoint an individual as a substitute elector to fill a vacancy as follows:
(1) if the alternate elector is present to vote, by
appointing the alternate elector for the vacant position;
(2) if the alternate elector for the vacant position
is not present to vote, by appointing an elector chosen
by lot from among the alternate electors present to
vote who were nominated by the same political party
[or unaffiliated presidential candidate];
(3) if the number of alternate electors present to
vote is insufficient to fill any vacant position pursuant

18a

to paragraphs (1) and (2), by appointing any immediately available individual who is qualified to serve as
an elector and chosen through nomination by and plurality vote of the remaining electors, including nomination and vote by a single elector if only one remains;
(4) if there is a tie between at least two nominees for substitute elector in a vote conducted under
paragraph (3), by appointing an elector chosen by lot
from among those nominees; or
(5) if all elector positions are vacant and cannot
be filled pursuant to paragraphs (1) through (4), by
appointing a single presidential elector, with remaining vacant positions to be filled under paragraph (3)
and, if necessary, paragraph (4).
(c) To qualify as a substitute elector under subsection (b), an individual who has not executed the pledge
required under Section 4 shall execute the following

19a

pledge: “I agree to serve and to mark my ballots for
President and Vice President consistent with the
pledge of the individual to whose elector position I
have succeeded.”.
Legislative Note: As with Sections 3 and 4, adjustment
of this Section is required for any state where
unpledged electors are permissible. For a state wishing
to accommodate unpledged electors, the language of
subsections (b)(2), (b)(3), and (c) could be changed to
the following:
(b)(2): “if the alternate elector for the vacant position is not present to vote but other alternate electors
who were nominated by the same political party [or
unaffiliated presidential candidate] are present, by
appointing an elector chosen by lot from among those
alternate electors of the same political party [or of the
same unaffiliated presidential candidate].”
(b)(3): “if the vacant position is that of an unpledged
elector and the alternate elector for that vacant position is not present to vote, or if there otherwise are no
alternate electors eligible for the vacant position under
paragraphs (1) and (2), by appointing any immediately
available individual who is qualified to serve as an
elector and has been chosen through nomination by
and plurality vote of the remaining electors, including
nomination and vote by a single elector if only one remains.”

20a

(c): “To qualify as a substitute elector for a vacant
position associated with an elector who had executed a
pledge, an individual who has not executed the pledge
required under Section 4 shall execute the following
pledge: “I agree to serve and to mark my ballots for
President and Vice President consistent with the
pledge of the individual to whose elector position I
have succeeded.”.”
Comment
A number of states name the Secretary of State to
preside at the meeting of electors, but states might opt
for a different official. See, e.g., TEX. ELEC. CODE ANN.
§ 192.006. For that reason, Section 6 brackets the designation of the Secretary of State as the presiding officer.
SECTION 7. ELECTOR VOTING.
(a) At the time designated for elector voting and
after all vacant positions have been filled under Section 6, the [Secretary of State] shall provide each elector with a presidential and a vice-presidential ballot.
The elector shall mark the elector’s presidential and
vice-presidential ballots with the elector’s votes for the
offices of President and Vice President, respectively,

21a

along with the elector’s signature and the elector’s legibly printed name.
(b) Except as otherwise provided by law of this state
other than this [act], each elector shall present both
completed ballots to the [Secretary of State], who shall
examine the ballots and accept as cast all ballots of
electors whose votes are consistent with their pledges
executed under Section 4 or 6(c). Except as otherwise
provided by law of this state other than this [act], the
[Secretary of State] may not accept and may not count
either an elector’s presidential or vice-presidential ballot if the elector has not marked both ballots or has
marked a ballot in violation of the elector’s pledge.
(c) An elector who refuses to present a ballot, presents an unmarked ballot, or presents a ballot marked
in violation of the elector’s pledge executed under Section 4 or 6(c) vacates the office of elector, creating a

22a

vacant position to be filled under Section 6.
(d) The [Secretary of State] shall distribute ballots
to and collect ballots from a substitute elector and repeat the process under this section of examining ballots, declaring and filling vacant positions as required,
and recording appropriately completed ballots from the
substituted electors, until all of this state’s electoral
votes have been cast and recorded.
Comment
To accommodate an elector unable to physically
mark a ballot or sign and print his or her name, those
steps can be done in the elector’s presence by another
individual directed by the elector to mark a ballot or
sign and print the elector’s name.
For the reasons discussed in the Legislative Note
for Section 6, references to the Secretary of State are
bracketed in Section 7.
SECTION 8. ELECTOR REPLACEMENT; ASSOCIATED CERTIFICATES.
(a) After the vote of this state’s electors is completed, if the final list of electors differs from any list

23a

that the [Governor] previously included on a certificate
of ascertainment prepared and transmitted under 3
U.S.C. Section 6, the [Secretary of State] immediately
shall prepare an amended certificate of ascertainment
and transmit it to the [Governor] for the [Governor’s]
signature.
(b) The [Governor] immediately shall deliver the
signed amended certificate of ascertainment to the
[Secretary of State] and a signed duplicate original of
the amended certificate of ascertainment to all individuals entitled to receive this state’s certificate of ascertainment, indicating that the amended certificate of
ascertainment is to be substituted for the certificate of
ascertainment previously submitted.
(c) The [Secretary of State] shall prepare a certificate of vote. The electors on the final list shall sign the
certificate. The [Secretary of State] shall process and

24a

transmit the signed certificate with the amended certificate of ascertainment under 3 U.S.C. Sections 9, 10,
and 11.
Comment
For the reasons discussed in the Legislative Notes
for Sections 5 and 6, references to the Governor and
the Secretary of State are bracketed in Section 8.
SECTION 9. UNIFORMITY OF APPLICATION AND
CONSTRUCTION. In applying and construing this
uniform act, consideration must be given to the need to
promote uniformity of the law with respect to its subject matter among states that enact it.
SECTION 10. REPEALS. The following are repealed:
(1) ….
(2) ….
(3) ….
SECTION 11. EFFECTIVE DATE. This [act] takes
effect….

